<html>
<title> - OPENING DOORS TO ECONOMIC OPPORTUNITY FOR OUR VETERANS AND THEIR FAMILIES THROUGH ENTREPRENEURSHIP</title>
<body><pre>[Senate Hearing 114-596]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-596

                 OPENING DOORS TO ECONOMIC OPPORTUNITY
      FOR OUR VETERANS AND THEIR FAMILIES THROUGH ENTREPRENEURSHIP

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
       
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ____________
                               
                               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  
                               
            
            
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
             JEANNE SHAHEEN, New Hampshire, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
               Robert Diznoff, Democratic Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     1
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     2

                               Witnesses
                                Panel 1:

Nowosielski, Katrina, Owner, Storm Guard of LA, Lafayette, LA....     4
Tansey, Albert, President, Tansey Electric, Manchester, NH.......     7
Sayles Artis, Laurie, President and CEO, Civility Management 
  Solutions (CMS), Bowie, MD.....................................    11

                                Panel 2:

Carson, Barbara, Acting Associate Administrator, Office of 
  Veterans Business Development, U.S. Small Business 
  Administration, Washington, DC.................................    27
Haynie, Michael, Executive Director, Institute for Veterans and 
  Military Families, Syracuse University, Syracuse, NY...........    33
Daugherty, Scott R., Assistant Vice Chancellor and State 
  Director, Small Business Technology & Development Center, 
  Raleigh, NC....................................................    37
McCaffrey, Charles W., Acting Director, Veterans Business 
  Outreach Center at Community Business Partnership, Springfield, 
  VA.............................................................    41

          Alphabetical Listing and Appendix Material Submitted

Carson, Barbara
    Testimony....................................................    27
    Prepared statement...........................................    30
    Responses to Questions Submitted by Ranking Member Shaheen, 
      Senator Gardner, and Senator Ernst.........................    51
Daugherty, Scott R.
    Testimony....................................................    37
    Prepared statement...........................................    39
Haynie, Michael
    Testimony....................................................    33
    Prepared statement...........................................    35
McCaffrey, Charles W.
    Testimony....................................................    41
    Prepared statement...........................................    43
    Response to a Question Submitted by Ranking Member Shaheen...    55
Nowosielski, Katrina
    Testimony....................................................     4
    Prepared statement...........................................     6
Sayles Artis, Laurie
    Testimony....................................................    11
    Prepared statement...........................................    13
ScoutComms
    Letter Dated July 10, 2015...................................    50
Shaheen, Hon. Jeanne
    Testimony....................................................     2
Tansey, Albert
    Testimony....................................................     7
    Prepared statement...........................................     9
Vitter, Hon. David
    Opening statement............................................     1

 
                       OPENING DOORS TO ECONOMIC
                      OPPORTUNITY FOR OUR VETERANS
              AND THEIR FAMILIES THROUGH ENTREPRENEURSHIP

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
Room 428A, Russell Senate Office Building, Hon. David Vitter, 
Chairman of the Committee, presiding.
    Present: Senators Vitter, Fischer, Gardner, Ernst, Ayotte, 
Shaheen, Cantwell, and Hirono.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. If I can have everyone's attention, good 
morning. This hearing of the Senate Small Business Committee 
will come to order.
    Thanks for joining us today to examine how we support 
veterans' entrepreneurship through various programs at the U.S. 
Small Business Administration. I want to thank Ranking Member 
Shaheen for suggesting this hearing and for working with me on 
a comprehensive veterans' entrepreneurship bill that we hope to 
mark up next month.
    We will be hearing from two panels of witnesses today. The 
first is a panel of entrepreneurs who have honorably and 
bravely served our country in the Armed Forces, and the second 
panel includes representatives of programs that help these 
veterans start and grow their businesses.
    Of course, veterans are invaluable members of our 
community, serving our country in so many ways, both here and 
abroad. Of course, it started with their valiant military 
service, but it also continues in terms of being business 
leaders and absolutely vital members of our economy. They gain 
valuable experience throughout their service, and 69 percent of 
veterans say that their biggest challenge after leaving the 
military is finding a job. We have over one million veterans 
currently unemployed, with unemployment rates for veterans at 
nine percent, and in some markets as high as 21 percent.
    So, we are here today to examine how we can better serve 
our returning heroes through entrepreneurial development 
programs at the SBA that target veteran service members 
throughout their transition to civilian life.
    The SBA operates a number of relevant programs. We are here 
to find out how we can make them even better and more 
effective. There are SBA's core technical assistance programs, 
such as Small Business Development Centers, SCORE, and Women's 
Business Centers, that also serve and have outreach initiatives 
specific to veterans. And, the SBA has supplemented these 
efforts with several new innovative initiatives aimed at 
supporting veterans and their families, like Veterans Business 
Outreach Centers, Operation Boots to Business, Veteran Women 
Igniting the Spirit of Entrepreneurship, and the 
Entrepreneurship Bootcamp for veterans with disabilities. These 
programs serve as vital resources for veteran entrepreneurs for 
training and counseling on how to translate their professional 
skills into a viable, sustainable business operation.
    Today's hearing will inform us in a number of areas, 
including the development of legislation that we are working 
on. I am particularly interested in finding out more about the 
role SBA's core entrepreneurship programs play in delivering 
entrepreneurship training to veterans nationwide and how we can 
ensure that any new initiatives are fully integrated with these 
partners.
    I also want to ensure that our veterans get the highest 
quality assistance as they start their own businesses and that 
we are making effective taxpayer investments. Metrics for these 
programs must be clearly defined and reliable and measurable, 
and the grant award process must be robust and fully 
competitive.
    I know that our witnesses can shed really important light 
on these and other issues, and so thanks to all of our 
witnesses participating today once again.
    Now, I would like to turn to our Ranking Member, Senator 
Shaheen, for her opening statement.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, RANKING MEMBER, AND A 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman.
    Good morning, everyone. Thank you to our witnesses who are 
here to enlighten us this morning.
    I really appreciate this opportunity to discuss a topic 
that is incredibly important not only for our veterans, but 
also for our economy and for our nation as a whole, and, let me 
apologize at the beginning of my remarks because I will have to 
leave at about 10:30 because the Appropriations Committee is 
marking up legislation today and I want to make sure I am there 
to see how we are spending the money. So, I apologize in 
advance to the second panel, which I am afraid I will miss 
entirely.
    Today, there are approximately 2.4 million veteran-owned 
small businesses across the United States and they represent 
about eight percent of all small business. Veteran-owned small 
businesses generate over $1 trillion in revenue each year and 
they employ nearly 5.8 million people.
    In my home State of New Hampshire alone, there are nearly 
14,000 veteran-owned firms, accounting for $6.7 billion in 
sales. That is roughly 10 percent of the companies and 5.6 
percent of all sales in New Hampshire. That is the fifth-
highest percentage in the country for those small businesses.
    Now, today's hearing is about the federal government's 
investment in promoting veteran small business ownership and 
entrepreneurship, specifically through programs at the Small 
Business Administration.
    Military veterans who choose to become entrepreneurs play a 
critical role in our nation's economy, as those statistics 
show. Their training and leadership skills provide a natural 
foundation to establish and grow businesses, which in turn 
create employment opportunities for returning veterans and 
American workers. That is why we must ensure that the federal 
government makes veterans' small business development a 
priority and that the programs being administered work 
effectively and efficiently.
    Encouraging veterans to start small businesses and succeed 
has been one of my top priorities on this committee, and I know 
that it is something that the Chairman shares as well as other 
members of the committee. Earlier this year, I introduced the 
Veterans Entrepreneurship Act, which was approved unanimously 
by the committee and it would make fee waivers permanent for 
veterans for SBA loans to help them get access to credit.
    Now, today, we have an opportunity to take a look at the 
full range of programs that are offered through the SBA to help 
veterans start and grow small businesses. The SBA offers 
programs that provide critical information, education, 
training, and counseling to our veterans. The committee's 
review of these programs is timely and I look forward to 
discussing ways we can make these efforts more effective and 
responsive to veterans' needs, and I am sure our panelists this 
morning, particularly those of you on the first panel, will 
have some thoughts about that.
    I want to, as I said, welcome all of you today, but I want 
to take this opportunity to just say a few words about the 
witness from New Hampshire, Mr. Al Tansey. Mr. Tansey is 
President of Tansey Electric, which is an electrical 
contracting business in Manchester, New Hampshire. He was 
recently named the SBA New Hampshire and Region 1 Veteran Small 
Business Owner of the Year. Congratulations, Al, for that 
recognition. He has a great story about his journey to becoming 
an entrepreneur and the importance of making sure our veteran 
support programs are working effectively and in a coordinated 
fashion.
    So, again, thank you all very much for being here. Al, 
thank you so much for coming down from Manchester, and I look 
forward to hearing what each of you have to say this morning.
    Thank you, Mr. Chairman.
    Chairman Vitter. Thank you, Senator Shaheen.
    And now, we will go to our first panel. I will introduce 
the other two members of our first panel.
    Mrs. Katrina Nowosielski is a Marine veteran and owns Storm 
Guard of Louisiana with her husband, James. Their company 
offers hurricane protection products to residential and 
commercial structures. They reached out to the Louisiana Small 
Business Development Center at the University of Louisiana at 
Lafayette upon starting their business and have continued to 
rely on the SBDC's services as their company has grown.
    And, of course, you just heard about Al Tansey. Welcome.
    And, finally, Ms. Laurie Sayles Artis is the owner of 
Civility Management Solutions in Bowie, Maryland, and a veteran 
of the U.S. Marine Corps. Before establishing her business, Ms. 
Artis went to SCORE, where she started working with a mentor 
who helped her navigate the early challenges of starting a 
business and has continued to help her expand her contracting 
business.
    Welcome to all of you. You will each have five minutes to 
testify, and, of course, your full written statement will be 
made a part of the record.
    And with that, we will start with Mrs. Nowosielski.

    STATEMENT OF KATRINA NOWOSIELSKI, OWNER, STORM GUARD OF 
                  LOUISIANA LLC, LAFAYETTE, LA

    Mrs. Nowosielski. Hello, everyone.
    Chairman Vitter. Hi.
    Mrs. Nowosielski. Well, I did not write it, so I am just 
going to impromptu----
    Chairman Vitter. Sure.
    Mrs. Nowosielski. When I was 16, I attended my brother's 
Marine Corps graduation. The first thing that I heard was boots 
hitting the ground in unison. It was so powerful, and just 
feeling the essence of all the Marines there, I knew at that 
point that I wanted to be a part of that. I wanted that 
strength and that power behind me.
    A couple of years later, after I graduated, I joined the 
Marine Corps. I served four years, and I served a 10-month tour 
in Iraq, which is where I met my husband. When we came back, we 
had about two years left of service and we transitioned out at 
that point because we were ready to start our family.
    We moved to Florida, where James, my husband, began working 
for a hurricane shutter company in South Florida. We spent 
about a year and a half there and decided to move home to 
Louisiana around family. We realized that there were no 
companies really focusing on hurricane protection there the 
same way that they did in Florida. So, we used the business 
model that we experienced there, and we replicated it at home 
in South Louisiana, and it has gone pretty fantastically.
    We began in Florida using the SBA from a distance. They 
guided us from start to finish on how to go about those things. 
Basic questions were answered. The liaisons there are 
phenomenal. They are wonderful, wonderful people. They helped 
me with things that I could not possibly have done for myself.
    I began with QuickBooks training, which was something that 
I had very little knowledge of, and anybody who is in business 
knows that books are probably one of the most important things 
to grasp. So, that was really important. It was one-on-one 
training. They matched 50 percent of the program. So, that was 
something that I could not have afforded on my own.
    I started with that. They helped with a Web site, as well, 
50 percent towards the Web site, producing the Web site. So, 
again, something that we could not have afforded, starting a 
new business on our own, and a combination of those two things 
really pushed us forward to a place that we would not have been 
able to get to financially on our own.
    They also helped us with a line of credit in our first 
year, which we attempted multiple times to get a line of credit 
and got denied, and, the SBA helped us to get a line of credit, 
which helped us to purchase materials which, obviously, allowed 
us to float things longer and really get on our feet. That was 
all within probably the first two years.
    And then, after that, they have provided us with an 
advisor, basically, who comes in, looks at our books, and then, 
in turn, will guide us on where we should go, what we should 
think about next, because we are young business owners and this 
is our first venture in business. He really keeps us on track 
and lets us know what to think about next and where we should 
go from there. And, again, that service, in general, has really 
guided us through this whole process.
    This will be our eighth year of business and we are going 
strong, and, you know, we are actually venturing out into other 
things, as well, since this has grown. It is providing for our 
family wonderfully, and we could not be more grateful for the 
services. We continue to use the services along the way.
    As far as anything that could be bettered, I have a really 
hard time coming up with anything that I could complain about 
with the service. A lot of the programs that I know you guys 
are concerned about are things that were not available when I 
got out, so the program from getting out, to what information 
you get, to transitioning that to a home state as opposed to 
just the bases where you get out, those things were not 
available when I got out, so I have a hard--you know, I cannot 
really testify on that, but----
    [The prepared statement of Mrs. Nowosielski follows:]
    [GRAPHIC] [TIFF OMITTED] T0056.001
    
    Chairman Vitter. Okay. Thank you very much.
    Mr. Tansey.

    STATEMENT OF ALBERT TANSEY, PRESIDENT, TANSEY ELECTRIC, 
                         MANCHESTER, NH

    Mr. Tansey. Good morning, Senators. It is with great honor 
that I am afforded the opportunity to address the Committee on 
behalf of veterans' members and the Veterans' Business Owner 
Initiative. It is also a great honor to be sitting in between 
two Marine veterans.
    The Veterans' Business Owner Initiative is an organization 
I hold dear to my heart, and I am not alone. The VBOI is 
established to assist veterans facing physical and emotional 
challenges and run successful business ventures, giving 
veterans an organized environment, encouraging them to develop 
skills in management, operations, and financial planning.
    As you are all aware, there are many government-funded 
programs that give veterans access to building loans, business 
loans, and most needed moral support. We as an organization 
strive to create a safe haven for veterans to dream of 
entrepreneurship and give them the tools they need to get 
there.
    You may be wondering how I know so much about the VBOI and 
the local success story. I am a small veteran business owner 
myself and I am personally connected to the organization as 
their president.
    I did not have the easiest life after service, a common 
story among veterans. I joined the Army in 1977, was discharged 
in 1980. I immediately went into the Army National Guard, but 
felt that disconnect from the service and I reenlisted back in 
the United States Navy under the advanced weapons program--
electronics program. I was discharged in 1985.
    Like many veterans, I was unsure of what to do. I was able 
to get back into the International Brotherhood of Electrical 
Workers in my hometown in 1985. And over the next 23 years, I 
worked as a union electrician and basically worked for other 
people in different shops from time to time.
    In 1997, I moved up to New Hampshire and I moved my trade 
and assets up to New Hampshire, in Manchester. Over the next 
several years, I worked for a couple of contractors, at which 
time I decided I was going to venture off on my own. A customer 
I was working with locally suggested that I not retire and 
start my own business.
    At that point, I ventured into my local SBA and met Miguel 
Morales and he suggested going to a veteran roundtable that was 
hosted in Nashua, New Hampshire, and Miguel and Ray Milano and 
a few others, and at that point, I met Gerald Pinsky from the 
Veterans Association who was there to support the SBA on their 
ability to help veterans.
    Gerald was at the meeting supporting the SBA in their 
mission to support veteran entrepreneurs. I started attending 
the VBOA classes in Manchester that were taught by Gerald. I 
worked my way through the 18 business modules. After 
graduation, with both the SBA and the VBOI's support, I was 
able to put together a business plan and financial projections. 
With the assistance and recommendation of both the SBA and 
VBOA, I approached the Radius Bank and received a line of 
credit through the Patriot Loan Act of $300,000 to start my 
business.
    I could not believe how my rapid success, with $500,000 in 
revenue the first year and $1.2 million revenue in the second 
year. I finally had purpose in life, a feeling that many 
veterans lack in their personal and professional lives. Taking 
control of my destiny has changed my life, and I am here today 
to speak for all veterans that lives will be changed with the 
help of the VBOI.
    Why the VBOI is better than most business organizations? 
Because we are veterans helping veterans create and start and 
own businesses. The Veterans Business Owner Initiative believes 
that the qualities that make good warriors also make good 
entrepreneurs. The VBOI has achieved many accomplishments since 
its inception in 2004. In 2006, with the help of Babson College 
students, the Empowerment Bank Loan Fund was established to 
provide small loans to veteran members teaching how to 
establish and maintain good credit relationships. Loans are 
$150 to $1,500 and are made in a step-wise fashion to build 
confidence. Over 100 loans have been given. All but three have 
been repaid.
    I could go on and on about the success stories that have 
emerged from the organization, but unfortunately, we do not 
have the time. But, I do want to stress why I am here today.
    The future of the VBOI and countless number of veterans is 
only possible with your help. The future could be bright if the 
VBOI can increase its establishment around the country, not 
only in New England. A dart thrown at a map of the U.S. will 
land on a spot where I guarantee you will find at least one 
dozen veterans who will give anything for the education 
opportunity I have had because of the cooperation of the VA and 
the SBA.
    With the support from the Senate, the VBOI can continue to 
support veterans and give back to them a return on the service 
they have given to us. With determination and thoughtful 
planning, we are optimistic about the future of the program and 
our role as veterans helping veterans to do more to overcome, 
to excel at whatever goals we choose for ourselves.
    Thank you very much for your time.
    [The prepared statement of Mr. Tansey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Thank you very much for your testimony.
    And now, we will go to Ms. Artis.

STATEMENT OF LAURIE SAYLES ARTIS, PRESIDENT AND CHIEF EXECUTIVE 
       OFFICER, CIVILITY MANAGEMENT SOLUTIONS, BOWIE, MD

    Ms. Artis. Good morning.
    Chairman Vitter. Good morning.
    Ms. Artis. Thank you, Chairman Vitter, Ranking Member 
Shaheen, and members of the committee, for this opportunity to 
testify, and I ask that my complete testimony be entered into 
the records.
    My name is Laurie Sayles Artis and I established Civility 
Management Solutions in August of 2012 as a professional 
services company. We are a woman, minority, service-disabled, 
veteran-owned small business, and I am also located in a 
HUBZone area in Prince George's County, Maryland, and currently 
in the process of submitting our 8(a) package on business 
development.
    I was born in Chicago and joined the United States Marine 
Corps and served during Grenada, Lebanon, and Desert Storm. My 
job in the Corps was maintenance management, which means I 
monitor the management and functionality of equipment for the 
fighting Marines, like the rifles, trucks, and the radios, and 
I had the honor of preparing Reserve Marines for the 
possibility of serving in Operation Desert Storm.
    The development of Civility Management Solutions came from 
an opportunity that I got to work in a corporate office of a 
woman-owned small business that was also 8(a) and HUBZone, in 
which I managed up to 128 staff nationally within eight 
government agencies totaling up to $11.5 million in contract 
value. And, mind you, when I got out of the Marine Corps, I 
started as a receptionist based on staffing agencies' 
qualifications, making $17,000 a year.
    But whereas my experience of serving in the Marine Corps 
gave me courage, discipline, teamwork, and tenacity that 
attributed to my transition into the civilian workforce. It was 
a slow and steady process, but the Corps taught me to lead and 
survive. So, what I was lacking was business acumen.
    Before establishing, I went to SBA SCORE, over three years 
now, and obtained a mentor, and I was appointed a retired Major 
General, Fred Elam, who was just perfect. Our first meeting 
was, ``Is your husband in agreement? Take courses with SBA and 
get an attorney and an accountant before you need them.''
    [Laughter.]
    If my mentor lacks expertise in any area, he refers me to 
another mentor to ensure that I get the proper insight or 
response.
    My highlight of the relationship with SCORE is the 
Washington, D.C., office honored me in 2015, this year, as 
``Client of the Year'' for my entrepreneurial spirit and 
accomplishments.
    So, in January of 2014, I attended VWISE and experienced 
networking at its best with women veteran entrepreneurs. But, 
adding more substance for the training for federal and 
commercial contracting would be great to add value for the 
program.
    The VWISE National Graduate Training Conference was a big 
kick. It allowed advanced training. It gave some booth exhibits 
to women that owned businesses and also provided for more 
networking opportunities for the graduates.
    It is clear that the heightened awareness in our country 
for veterans and veteran entrepreneurs is there. However, as of 
recent, I have spoken with Fortune 500 companies that stated it 
is difficult to find strong veteran candidates for employment 
and procurement-ready veteran-owned businesses for being a part 
of their supplier diversity office. We need more synergy in 
promoting veterans to the commercial opportunities, as I do 
plan to be a conduit on that and would appreciate the support 
of the program.
    I am a recent graduate of the Montgomery County, 
Maryland's, Veteran Institute of Procurement, and they are 
doing an excellent job of training veteran-owned businesses 
that are already procurement-ready for doing work with the 
federal government. They are slowly doing it, and they are the 
only ones out there who are doing it.
    During my training, I had a group exercise for responding 
to sources sought, also called an RFI request for information, 
and since graduation, my company has been awarded work with the 
Department of the Army because I was able to respond to their 
sources sought due to the training. And, the work was set aside 
for a service-disabled veteran-owned small business, and we 
went after it and won.
    So, I suggest that they become an authorized program as 
opposed to just being a grantee.
    Lastly, as an officer on the Veteran Entrepreneurship Task 
Force Committee, which is a non-federal community group that 
advocates for veteran-owned small businesses that offers 
recommendations and advice to Congress, government, and other 
entities also providing training to us, I have been affiliated 
for the past three years and have received much support, 
guidance, and information relative to being in business with 
the federal government by attending their monthly meetings.
    Again, thanks for the opportunity to share my experience 
with the committee on veteran entrepreneurship programs.
    [The prepared statement of Ms. Artis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Great. Thanks to all of you for your 
excellent insight and testimony.
    Because of her schedule and requirement to leave in a 
little bit, I will turn first to Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I want to start, Mr. Tansey, with you. You talked about the 
importance of the roundtable with other veterans in helping to 
encourage you to actually make the jump to go out on your own. 
Can you talk about how important that is for veterans 
everywhere, as you talk about the sort of support for getting 
direction for what you might want to do when you get out of the 
service?
    Mr. Tansey. Yes, Senator. Thank you. I know for myself, the 
SBA was an integral part of myself getting started, but joining 
the Veteran Business Owner Association Group locally, the 
veteran-to-veteran peer networking, there is something about 
when I left the service--and I speak for myself, but I know I 
speak for a lot of veterans--when we leave the service, there 
is what I call the service disconnect, and we feel like we do 
not belong ``out here'' and there is that longing to belong to 
something.
    What I found inside my group is that the veterans meeting 
with other veterans, it is not just the peer-to-peer network as 
far as growing the business intelligence, but also the veterans 
helping each other talk about problems they may have in their 
current lives. And, it helps boost the morale and the 
confidence.
    One of the important things about--you know, I bring a lot 
of veterans--I tried to bring a lot of veterans into my 
businesses. Veterans already have the package. We just have to 
learn how to open it up. Most veterans are conditioned to 
adverse conditions, to strive to make sure that the mission is 
completed at all costs. And once they have the respect and the 
honor, they are very loyal. We call it, we have your six. It is 
a proven fact.
    Senator Shaheen. So, you talked about going into SBA and 
the support you got there. Are there ways in which we can do a 
better job of helping reach out more to veterans so that they 
know that SBA is there and that it is available to help when 
people have an idea or want to start a business?
    Mr. Tansey. Yes. I am currently working with Miguel 
Morales, my local SBA interaction up there in Manchester, who 
goes to Pease Air Force Base from time to time to give the 
boost to business talk, and I call it the Charlie Brown effect. 
When people are leaving the service, all they hear is wah-wah-
wah-wah-wah. Let me out the door.
    [Laughter.]
    So, I was instrumental in helping with Jerry. We put 
together a pamphlet for the VBOI that he can hand to the 
individual so they can have it in their packet. I am going to 
be working with him here closely to put together a packet so 
the individual, when he leaves the service, has something to 
hold onto that within two, three weeks afterwards, when the 
dust settles, he has got numbers he can call, people he can 
come to, because it is instrumental that he come back to 
ground.
    Senator Shaheen. I think that is a great idea, and thinking 
about how we can do that kind of outreach through SBA is really 
important.
    Mr. Tansey. It is very important at all the programs, the 
SBA, the PTAP, the VA, the VBOI, all start talking to each 
other. I mean, they all have wonderful assets. They all have 
wonderful programs. What we need to do is combine them all 
together to get them talking. Get the conversation open and see 
what happens. I think you will be surprised.
    Senator Shaheen. Thank you.
    To our other two panelists, Ms. Artis and Ms. Nowosielski, 
I was very pleased to see that we have two female veteran-owned 
business representatives here, because as you are probably 
aware, unfortunately, women veterans are under-represented in 
terms of starting their own businesses. So, I wonder if you 
could talk about how we could increase awareness among female 
veterans about the assistance that might be available and 
encourage them to take those great ideas, like both of you have 
done, and start their own business? Either one.
    Ms. Artis. Thank you. It is odd, by the way, to have two 
women Marines in a room, because I have actually gone on a boat 
cruise with veterans. It was 192. I was the only woman veteran 
on that cruise. So, it is a pleasure to be here with her.
    But, as far as having more visibility, I would say that--I 
know that they have the TAP programs out there. Thank goodness 
now for the Internet, when comparison to the time that I got 
out, that stuff did not exist, that they need to incorporate 
more information there, because a lot of veterans are getting 
out thinking to start their business in this generation, 
whereas that was not my thought. It was more about I just need 
a job. I wanted to put a suit on and go to work.
    So, now the pace has picked up, and there is a huge women's 
movement that is going on. There are a lot of nonprofits that 
exist. So, it is just a matter of someone spending the time to 
kind of bringing all those entities together, or at least 
getting on their mailings, getting in their e-mail world, so 
that they can be informed of what the SBA is offering.
    I, myself, personally, am a huge mentor and I am sharing 
all the time. One of the first things I ask, do you have a 
SCORE mentor, and if they tell me no, then I advise them how to 
get one.
    Senator Shaheen. Thank you. I would point out that Senator 
Ernst, who just left, is also an ex-Marine, so we actually had 
three in the room today.
    Ms. Artis. That is amazing.
    Senator Shaheen. And, can I just ask, Mrs. Nowosielski, do 
you have anything to add to that about, as somebody who came 
out a little later and was starting up, what was most helpful 
to you?
    Mrs. Nowosielski. I would definitely agree with both Mr. 
Tansey and Ms. Artis on the TAP program. When exiting, they 
give you a ton of information. There was a lot of literature, 
and for myself, I made a giant packet, because I did do the 
Charlie Brown effect. You do not hear anything. You are just 
ready to go.
    And, so, you get out there, and I probably still have it in 
a file somewhere, where it was just a giant pile of 
information, and I did go back through it when I was ready to 
consume it and use that guidance, and I think that is how I 
ended up at the SBA, because it was in there. So, it absolutely 
is there. You just have to want it and you have to want to go 
for it.
    I think that one of the things that a lot of folks do is 
they end up in the medical facility, the VA medical facility, 
and I think that maybe that might be a really good place to 
connect and be given information again at one point, and they 
do have a ton of information there, as well.
    The Web sites are helpful, obviously. We get out there and 
we just surf. I found a lot of my own information that way. You 
just go from one place to another to another, connecting. But, 
the information is there. It is there. You just have to look 
for it.
    Senator Shaheen. Thank you all very much. My time has 
expired.
    Thank you, Mr. Chairman.
    Chairman Vitter. Thank you, and we will go to Senator 
Hirono. I will wait until last. Senator.
    Senator Hirono. Thank you, Mr. Chairman, and thank you all 
for coming to testify.
    I am a member, also, of the Veterans Committee as well as 
the Armed Services Committee, so I am very focused on the 
transition from active to veteran status, and I have heard from 
meeting with veterans all across my state that the TAP--that is 
a lot of information given to you pretty much in a very 
condensed way when all you are thinking about is leaving, 
transitioning out. And, I think you make a good point that 
there needs to be other--maybe the rest of you also agree--that 
there needs to be other points at which this information is 
readily available to the veterans.
    Mr. Tansey, you mentioned that there are all these 
different programs and they should be talking to each other and 
you do not see that happening in the way that would be 
beneficial for veterans who seek this kind of information.
    Mr. Tansey. Yes. I do see some talking back and forth, but 
as a personal note, I see different programs out there. 
Everybody is pining to be the next best thing for the veterans' 
needs.
    Senator Hirono. Mm-hmm.
    Mr. Tansey. So, some things get lost in the translation for 
the different programs. I am just a conduit to try to take in, 
bring all the assets to bear. SBA was an integral part of me 
starting my business and they have great assets. Part of the 
issue for the SBA in my state is they say, you know, they need 
the support from the outside world. So, my organization, I 
encourage all my members to support the SBA, to get that 
interaction back and forth, to get that communications open.
    Senator Hirono. So, the SBA is in every state, but, for 
example, I have some experience with SBA's, the Small Business 
Development Centers, and those can be in different communities. 
I am wondering whether--and that is kind of a one-stop place 
for just people who are interested in starting small 
businesses, not necessarily a veteran-focused one-stop center. 
Are there any of these veterans programs that can serve as more 
of a one-stop center for veterans who are interested in 
starting their businesses, of all the different programs that 
are out there? Any of you?
    Mr. Tansey. I know for myself, as President of the Veterans 
Business Owner Initiative, currently, we have been going for 
about 10 years----
    Senator Hirono. Are you in every state?
    Mr. Tansey. No. Right now, we are only in New England. That 
is pretty much why I brought packets down----
    Senator Hirono. Yes.
    Mr. Tansey [continuing]. Because I want to be in every 
state. What I would really love to do is to interact with the 
SBA. SBA is already in place. They already know the contacts. 
All we need to do is talk, and----
    Senator Hirono. So, how is your organization supported, 
then? You are only----
    Mr. Tansey. We are self-supported. We are a 501(c)----
    Senator Hirono. Okay.
    Mr. Tansey [continuing]. So, we are actually looking for 
funding to start a pilot program for two years. We would love 
to have 10 locations over two years with a small funding just 
to see how the program goes along before it actually gets, you 
know, totally funded. We are a 501(c), so--it is veterans 
taking pride in their own organization to help other veterans.
    Senator Hirono. So, there are federally supported programs 
that you are also familiar with. Would you like to respond?
    Ms. Artis. Yes, ma'am. There are--actually, the VWISE is 
something that SBA has funded. I understand that VIP, as well, 
is kind of as a grant scenario. They should be authorized, 
though, because they provide something that nowhere else can we 
get, because it is for ready companies for federal government 
work, meaning they would like for you to have three employees. 
They would like for you to have already some funds on the 
books. Then when you go, of course, you are getting knowledge 
that you can apply immediately and be able to bounce off what 
you have already set up to what the experts are saying about 
what you are doing and being able to come away with really 
improving what your organization has to offer.
    But, I really need to echo one thing that he has stated 
that is very true. We can be a little territorial as veterans, 
meaning that veterans supporting veterans is a much bigger deal 
for us, seasoned veterans like him and I, specifically--I 
notice he is a little younger--because we have been through a 
lot already to get through the transition. And many of the 
newer veterans, you know, they have to become civilians first. 
Veteran, civilian, the same thing, because that process takes a 
while. I do not know when I stopped saying, ``I am going to the 
head.''
    [Laughter.]
    And, I was working in a professional environment before I 
switched over to going to the bathroom, so that is my comment.
    Senator Hirono. My time is running out, but I just wanted 
to ask, would it be a good idea for us to try and bring all of 
these various programs together, at least under--if not 
physically under one roof, at least under one Web site that you 
could go to and that you could see all of the array of 
assistance? Is there such a place right now on the Internet 
that you could go to?
    Mrs. Nowosielski. I do not know of a place, but I do like 
the SBDC connection with the whole thing. There are a lot of 
veterans, and because they are housed at the universities, when 
a lot of us get out, we end up using our G.I. Bill, and we are 
looking for things and it is there. And, I like the idea of 
having it connected at that point, whatever programs are 
available. They have a direct, you know, connection. I have 
used the SCORE program, as well, which is a wonderful, 
wonderful program which the SBDC pointed me in their direction. 
I signed up for their Web sites, and they send out when they 
have meetings and different things and you can attend. So, I 
think that that is a great, great core place----
    Senator Hirono. SBA----
    Mrs. Nowosielski [continuing]. If you are looking for one 
spot--the SBDCs, the local----
    Senator Hirono. Okay. Thank you.
    Mrs. Nowosielski. Yes, ma'am.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman Vitter. Thank you, and we will go to Senator 
Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and I appreciate 
the witnesses being here today and for their testimony.
    I wanted to ask you about access to capital. What 
challenges did you face getting access to capital as small 
businesses? Do you think military members have unique 
challenges there? What are some of the things that we can do to 
help with that?
    Mrs. Nowosielski. I think that unique challenges--I would 
not say anything unique other than what a non-veteran would 
experience. But, just like any small business in that first 
year, they want to see that you have legs to stand on and 
nobody does at the beginning. So, it was very hard.
    The way that we ended up with a line of credit in our first 
year of business was that it just so happened a person at a 
bank needed the products that we had. There was no-one local 
selling them at the time. And, she just really went to bat for 
us. It took one person to stand up for us, and she got us an 
SBA line of credit for $50,000 and that is what got us started. 
But, I had been to multiple banks up until that point and was 
denied multiple times.
    Senator Cantwell. Any of the other witnesses?
    Mr. Tansey. I know for myself, I believe I have the last of 
the American Patriot Loan Act. Unfortunately, it helped me get 
my business going, my line of credit, $300,000. It was 
instrumental in me getting my business going. But, it was what 
I had to do to get that loan. As a veteran, not only did I have 
to throw up 100 percent collateral--my house, my retirement, 
the whole nine--I had to take a life insurance policy out. The 
only thing I did not have to give was a child, for just a small 
loan. And, after researching that loan, we found that the 
Patriot Loan had a very large failure rate.
    So, I know my organization, we are talking back and forth 
about something a little different, a loan package for 
veterans, for veterans. We are working in the avenues of trying 
to start our own intermediary bank, so----
    Senator Cantwell. And, what would that do? What size would 
you be looking at?
    Mr. Tansey. Uh----
    Senator Cantwell. For, like, starter loans?
    Mr. Tansey. For starter loans?
    Senator Cantwell. What range, yes?
    Mr. Tansey. Ten to $20,000, $30,000 for starters, but it 
could go up to $150,000, depending on the entrepreneur, their 
record, basically on their credit scores. But, it would be a 
loan for the veteran, the customer, me the customer, not the 
banks. Having to put up--most veterans put up their lives on a 
ticket.
    We sign an oath to defend the Constitution of the United 
States. And when we come back--we put our lives on hold for 
many, many years, some 10, 20 years. So, they do not have the 
ability to build that credit establishment when they come out. 
So, they are starting like a green bean coming out of high 
school. So, they do not have the greatest credit score. They do 
not have the credit history, so it is hard for them.
    Senator Cantwell. Or the private sector work experience.
    Mr. Tansey. Or work experience, exactly.
    Senator Cantwell. Sometimes you get somebody who works in a 
field and then decides to spin off and go their own route, but 
they do not have that, here is five years where I worked in 
this sector.
    Mr. Tansey. And, actually, that is all highlight points 
that the bankers look at and say, well, this is a high-risk 
loan, so we are going to attach so much to it, and we should 
not have that.
    Senator Cantwell. So, it is the collateral that--so, you 
are looking for ways to have things without a high level of----
    Mr. Tansey. Collateral.
    Senator Cantwell [continuing]. Collateral, yes.
    Mr. Tansey. Exactly.
    Senator Cantwell. Okay. Ms. Artis.
    Ms. Artis. Actually, ma'am, I can say that is still a 
problem. I do not have financing. I have been just blessed with 
the whole family-friend scenario. But, I do know that is one of 
the biggest challenges. I am one of the younger companies here 
on the table. That is still a continuous challenge among my 
peers that I speak to. That is the biggest challenge, is 
getting the capital to fund the professional services that they 
offer.
    Senator Cantwell. And are you thinking the same range that 
Mr. Tansey was talking about?
    Ms. Artis. Yes. Actually, that range would be a safe range, 
specifically in the services that we provide, because we are 
just waiting for the government to pay us for the services that 
our staff may have already provided to them. So, we just need 
that float money between pay periods.
    Senator Cantwell. Okay. Thank you, Mr. Chairman. I know you 
have a second panel that you want to also get to.
    Chairman Vitter. Yes. Thank you.
    Senator Cantwell. Thank you. Thank you to the witnesses.
    Chairman Vitter. Thank you very much.
    I have a few questions. Ms. Nowosielski, I know you went 
into this somewhat, but specifically, what were some of your 
biggest challenges as a transitioning service member, coming 
out of the service and thinking about business?
    Mrs. Nowosielski. The biggest challenge was probably 
funding and figuring out how to get money in order to make 
money. And then going to school and juggling with an education 
through all of those things.
    Challenges, probably the financial aspect of it. We just 
grew slow. We started really small and we spent--what we made, 
we spent, and then we grew, you know, over a period of seven 
years. We just had to take a slow route as opposed to getting 
money to do bigger things. There were many projects that we had 
to pass up because we did not have the capital to do them at 
the time.
    Chairman Vitter. Right. So, single biggest challenge was 
capital----
    Mrs. Nowosielski. Probably, yes, sir.
    Chairman Vitter [continuing]. And funding to get started as 
a business.
    Mrs. Nowosielski. Yes, sir.
    Chairman Vitter. Okay. And, after you were initially 
started, what were some of the continuing issues that SBDC, in 
particular, helped you with?
    Mrs. Nowosielski. Education was the biggest thing that I 
received help with. We received a business advisor through the 
SBDC who came in and broke down books and explained to us how 
to read financials and how to navigate through what we should 
spend and what we should not spend, and what we could afford 
and not afford. They also came in and helped. We do light 
manufacturing, so they helped us to set up our assembly line in 
an efficient manner. They helped us to find used equipment, 
things like that, that was affordable for us at the time so 
that we could pick up production and produce more. And those 
things were extremely valuable to us.
    Chairman Vitter. Great. Okay.
    I know that SBA tries to create sort of a whole network of 
support for veterans' business owners. In your personal 
experience, how would you grade that sort of network?
    Mrs. Nowosielski. I think I would grade it an A. I think it 
is wonderful. I had no problems. Everything that I asked for 
was provided and then some. I was never told no or turned away. 
If they could not provide it, they gave me a point of contact 
where I could get the help.
    Chairman Vitter. Okay.
    Mrs. Nowosielski. I have zero complaints.
    Chairman Vitter. Great. Okay.
    Mr. Tansey, I think you have dealt with VBOI as well as 
SBA, right?
    Mr. Tansey. Yes.
    Chairman Vitter. How would you compare them, and is there 
duplication? Is there overlap or duplication that is 
counterproductive?
    Mr. Tansey. Well, I believe the SBA and the Boost to 
Business program, I did not go through that program, but 
working with Miguel, I get the logistics of it.
    The VBOA basically is an 18-class module starting from 
conception all the way up to financial and out the door 
business planning. So, we were able to build a business plan. 
The SBA also provides this kind of support, but what I found is 
that the veteran-to-veteran peer networking within the group--
the group dynamics is what has changed my attitude as far as 
what is better and what is worse than others. VBOA groups 
themselves, you have to experience. As the President of the 
VBOA, I invite each and every one of the panelists to come to 
one of our meetings in Massachusetts or New Hampshire, you 
know, an open invite, to see the difference in the lives of the 
veterans as they transition back.
    Basically, there are a lot of veterans out there that are 
having issues with post-traumatic stress, alcohol, drug-related 
issues, the pill pop from the Veterans Administration to help 
quiet the voices in the head. Coming back to the group, I see 
time and time again those people getting off the medications 
and getting back into the real world. It is real time. It is 
real. But, I do not want to push away the SBA, because the SBA 
has always been an intricate part of my business.
    Chairman Vitter. Right.
    Mr. Tansey. It still is.
    Chairman Vitter. Right. Okay. Thank you very much.
    Let me go to Senator Ayotte.
    Senator Ayotte. Thank you, Chairman. It is really an honor 
to have you here, Mr. Tansey, and thank you for coming today, 
and congratulations on being named the New England Veteran-
Owned Small Business of the Year. That is terrific. I am glad 
to hear that you have been able to grow with the help of the 
Veterans' Business Owners Initiative.
    I know that you have already testified, but I also 
understand that you were the first Veterans' Business Owners 
Initiative member in New Hampshire to reach $1 million in 
sales.
    Mr. Tansey. That is correct.
    Senator Ayotte. That is fantastic. And, I know this started 
in New England and that one of the things you have told this 
committee today is that this program has been effective and we 
should expand it nationwide. What can we do, do you think, to 
be able to take what has happened in New England and really 
scale it up nationwide, and what--I know you have probably 
already talked about this, but--what do you think is the most 
important tool that is part of this program? You talked about 
the peer-to-peer mentoring aspect of it.
    As you know, Senator Shaheen and I work together on a lot 
of these veterans issues, whether it is the health care issue 
that we are trying to make sure that our veterans in New 
Hampshire get more access to health care because we do not have 
a full-service hospital, and wanting to make sure that whatever 
we are doing is the best to have that local connection, because 
I think that is probably why it has been so effective for you 
and helpful for the veterans. So, just any thoughts for us on 
how we can take what you are seeing and make it for everyone to 
have that opportunity.
    Mr. Tansey. Thank you, Senator. It is good to see you 
again.
    Senator Ayotte. Great to see you.
    Mr. Tansey. I am happy to see a couple supports for the 
women-owned initiative in New Hampshire. I support the SBA on 
women's issues, also.
    Senator Ayotte. Yes. Fantastic.
    Mr. Tansey. The VBOI, basically, we have an idea how we can 
take this model. We have a model already set in place. We have 
the numbers all put together. And, I would love the support of 
the Senate or Senate subcommittees to take a look at our 
numbers, to present a pilot program to where we could reach out 
to 10 cities for pilot for two years and see how it goes.
    Senator Ayotte. Mm-hmm.
    Mr. Tansey. But, my experience, the peer-to-peer mentorship 
between the veterans, whether it is man-on-man or woman-on-
woman, we have women businesses in our group already, so----
    Senator Ayotte. Yeah.
    Mr. Tansey [continuing]. It needs to get out there. We need 
your help.
    Senator Ayotte. Absolutely. So, I have a question for you. 
One of the issues that we have been hearing a lot, too, on, 
because I serve on the Armed Services Committee, as well, is, 
so, veterans, in terms of the experience they come out of the 
military with, we know that that experience, incredible in 
terms of the training, the leadership skills, the ability to 
work with other people. But, often, how you put--let me use an 
example. You have been a sniper. How does that translate into a 
job description that an employer can understand so that we can 
make sure that veterans get hired more?
    And, so, wanting to make sure--like, much of the training 
that you get in the military--it is often that private 
employers--veterans do not know how to translate that, or 
private employers, frankly, are not translating this incredible 
skill set of our veterans so that they know what our veterans 
are capable of so we can get more veterans hired.
    I just wanted to get your thought on that. I mean, you come 
to this, obviously, with having served and having that 
experience of the peer-to-peer, but getting that issue of 
translation of skills so that we can get more veterans hired, I 
just wanted to get your thought on that.
    Mr. Tansey. It is basic military training. As we transpire 
through military training, it is drawn into us to lead by 
example and to expect the unexpected. Most veterans in a 
cohesive unit group know what the guy to the left and the guy 
to the right does. And in the case of troubling times and that 
person is no longer there, we can take up the slack. As a 
leader of a unit, you become in-tuned to exactly the needs and 
the attributes of each one of your members and you learn how to 
key off those assets to trigger that veteran to the next level.
    Unfortunately, in the business world, it is do or die. We 
want it done. Why is it not done yet? So, the business owner in 
the real world does not really understand the concept of what 
goes through a military mind, because it is droned into us, it 
is driven into us, it is reactive. What I see time and time 
again is veterans coming back to veterans, and we can key off 
on those key points because we know them, and we take them to 
the next level of confidence. And, once a military member that 
has been trained hits that confidence level, you cannot stop 
them.
    Senator Ayotte. Right. I am a little partial, because I am 
married to a veteran. He has his own business, so I see that.
    [Laughter.]
    But, I think getting that word out, whatever we can do to 
get the word out to employers, private employers, so that they 
are hiring more veterans, would be terrific. So, any thoughts 
down the line you have for us on that, I would really 
appreciate it.
    Ms. Artis. I would like to add, snipers and individuals 
that have interesting jobs in the military that kind of have 
more of a difficulty transitioning, apprenticeship programs and 
training, specifically now all these certifications that they 
have out here in IT, at this point, all service members are 
operating on computers. They have e-mail addresses, things, 
again, that did not happen in our era. But, nonetheless, they 
are very techy. So, those types of programs need to be 
elaborated on, and the G.I. Bill funds need to be allocated for 
them to be able to use that for those sources, not just a 
typical four-year degree, because you are 30, 40 years old and 
you are not about to go to school--or do not desire----
    Senator Ayotte. I totally agree. There are actually a lot 
of great advanced manufacturing jobs where you need those skill 
sets and the pay is good, so we can transition to that. That is 
not a four-year degree, but getting those skills, so I 
appreciate it.
    Ms. Artis. Yes, ma'am.
    Senator Ayotte. Thank you.
    Chairman Vitter. Great. Thank you all very much. We really 
appreciate your testimony here, as well as everything you are 
submitting for the record.
    We will now move on to our second panel, and as they get in 
place, I will go ahead and start introducing them.
    Ms. Barbara Carson is the Acting Associate Administrator 
for the Office of Veterans Business Development at the SBA. She 
is responsible for veteran-related programs for active duty and 
reserve service members, service-disabled veterans, and 
military dependents and survivors.
    Dr. Michael Haynie is the Vice Chancellor of Syracuse 
University, responsible for veteran and military affairs. Dr. 
Haynie also serves as the Founding Executive Director of 
Syracuse University's Institute for Veterans and Military 
Families and as the Barnes Professor of Entrepreneurship. 
Before beginning his academic career, he served for 14 years as 
an officer in the United States Air Force.
    Mr. Scott Daugherty is also a U.S. Army veteran. He serves 
as the Assistant Vice Chancellor for Economic Development at 
North Carolina State University and the State Director of the 
Small Business Technology Center, which provides confidential 
business advisory services and educational programs for 
existing businesses and start-ups. And, in 2011, he was also 
appointed by Governor Beverly Perdue to serve as North 
Carolina's first Small Business Commissioner and was a part of 
the Senior Management Team of the Department of Commerce there.
    And, Mr. Charles McCaffrey has served in the U.S. Navy, 
including the Navy Reserve Officers Training Corps and on the 
President's National Security Telecommunications Advisory 
Committee Cybersecurity Collaboration Task Force. He now serves 
as a Director of the Veterans Business Outreach Center in 
Springfield, Virginia.
    Welcome to all of you. Just like the last panel, you will 
be invited to testify here for five minutes each, and, of 
course, your entire written testimony will be made a permanent 
part of the record.
    So, we will start with Ms. Carson. Welcome.

 STATEMENT OF BARBARA CARSON, ACTING ASSOCIATE ADMINISTRATOR, 
 OFFICE OF VETERANS BUSINESS DEVELOPMENT, U.S. SMALL BUSINESS 
                         ADMINISTRATION

    Ms. Carson. Good morning, Chairman Vitter and Ranking 
Member Shaheen and members of the committee. Thank you for the 
opportunity to testify on the U.S. Small Business 
Administration's continuing efforts to empower veteran 
entrepreneurship and small business ownership.
    We do this by executing programs and policies that maximize 
the availability of SBA services for veterans, service members, 
and their spouses. We are grateful for this committee's 
continued support of SBA's programs to provide training and 
counseling, access to capital, and federal procurement 
opportunities for our nation's heroes and job creators.
    As small business owners, veterans continue to serve our 
country by creating critical employment opportunities and 
driving economic growth. They possess the skills, discipline, 
and leadership to start and operate successful businesses in 
their communities. In fact, veterans over-index in 
entrepreneurship and are at least 45 percent more likely than 
those with no active duty military experience to be self-
employed. Nearly one in 10 small businesses are veteran-owned, 
and these businesses generate over $1.2 trillion in receipts 
annually and employ nearly 5.8 million Americans.
    SBA's programs are making a significant positive impact to 
ensure that we create the next greatest generation of veteran 
small business owners. This year, to provide training and 
counseling, we executed on our first appropriation for Boots to 
Business, the entrepreneurship track of the DOD's Transition 
Assistance Program, known as TAP. This has trained over 27,000 
transitioning service members and their spouses to date.
    Working through the interagency governance of TAP, we are 
extending Boots to Business to all active duty service members 
and spouses at any point during their service through the 
Military Lifecycle Strategy. And, with support and active 
participation from the private sector, nonprofit NSBA resource 
partners, we are extending this program to veterans of every 
era and their families through a program we call Boots to 
Business Reboot.
    For access to capital, we will sustain the SBA's Veterans 
Advantage Policy to waive fees for veterans and their families 
that qualify for SBA guaranteed loans of $350,000 and below, 
and reduce fees by half for SBA guaranteed loans between 
$350,000 and $5 million. This policy has already saved veterans 
over $8.6 million in fees since January 1, 2014.
    In the area of federal contracting, we are very pleased to 
report that the SBA's leadership will soon announce that the 
federal government exceeded the three percent goal for 
contracting with service-disabled, veteran-owned small 
businesses for the third straight year.
    We continue to provide funding to programs for our severely 
disabled veterans, called the Entrepreneurship Boot Camp for 
Veterans with Disabilities, as well as programs for women 
veterans, called the Veteran Women Igniting the Spirit of 
Entrepreneurship program.
    OVBD's commitment to its mission extends to and is enabled 
by our partners. Our network of 15 Veteran Business Outreach 
Centers, known as VBOCs, is the cornerstone of our delivery 
model. These VBOCs serve as providers and integrators of 
business assistance and maintain the expertise to refer 
veterans to other federal and local service providers, as well. 
In many cases, VBOCs are extensions of SBA's business offices 
and assist SBA employees assigned as Veteran Business 
Development Officers.
    Our 15 VBOCs extend the services nationwide by 
collaborating extensively within SBA's network of resource 
partners, which also includes Small Business Development 
Centers, Women's Business Centers, and SCORE. This 
collaboration allows VBOCs to maximize SBA's integration of 
service and knowledge for veterans, as exemplified by the VBOC 
Directors who will testify today.
    Our partnership model also extends to other veteran 
entrepreneurship centers of excellence, such as the Institute 
for Veterans and Military Families at Syracuse University, who 
is also appearing today.
    SBA's innovative private partnership framework enables our 
effectiveness, and importantly, our efficiency. Our 
collaboration produces success stories like Mr. Timothy Page. 
After serving 27 years on active duty in the U.S. Army, Tim 
attended Boots to Business at Fort Meade in Maryland as the 
first step of his transition mission to pursue small business 
ownership. His idea was to create eco-friendly car washes that 
he calls Auto Spas, and through the facilitation of Mr. Mark 
Williams and SBA's Boots to Business Program, he was introduced 
to Ms. Melissa Dent, who is a counselor at the Maryland Small 
Business Development Center, who helped him develop a business 
plan.
    Just this past May, Tim competed in a business plan 
competition that was privately funded specifically for Boots to 
Business graduates, and that is where he won first place and 
$30,000 in seed capital. His first Auto Spa will open in 
Forestville, Maryland, in the spring of next year.
    While Tim's story is a great example of how our programs 
and partners integrate to empower veteran entrepreneurship, it 
also highlights a gap that we must address, and that is access 
to capital. We can and must do more to get capital, and in 
particular start-up or seed capital, into the hands of veterans 
like Tim. We must also strengthen and modernize our information 
technology infrastructure so that we may sustain our programs 
and make SBA more accessible.
    In addition, we must enable data sharing between SBA and 
federal agencies, such as the Departments of Defense, Labor, 
and Veterans Affairs, as well as external partners. This will 
allow us to synchronize our efforts, connect veterans and 
military spouses with the resources they need, and report on 
essential performance outcomes, such as business formation, 
capital acquired, and the creation of jobs.
    Thank you for the opportunity to testify today and to 
highlight our mission. By authorizing our work, you are 
mandating that the United States government does all it should 
to provide the American dream of business ownership to those 
who have fought and continue to fight every day for our 
country.
    Thank you, sir.
    [The prepared statement of Ms. Carson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Great. Thank you very much, Ms. Carson.
    And now, we will move to Dr. Haynie.

   STATEMENT OF J. MICHAEL HAYNIE, VICE CHANCELLOR, SYRACUSE 
 UNIVERSITY, AND DIRECTOR, INSTITUTE FOR VETERANS AND MILITARY 
                            FAMILIES

    Mr. Haynie. Mr. Chairman, members of the committee, thank 
you very much for the opportunity to spend a little time 
talking about an issue that is a personal passion of mine. As 
both a military veteran and also an entrepreneurship professor, 
veteran business ownership really does represent for me the 
nexus of two passions.
    Beyond my written testimony, I think what I will spend my 
time doing is just reflecting on just how far I think we have 
come as a community over the course of the last eight years or 
so.
    I left active duty service in 2006. I was fortunate that 
while I was a serving Air Force officer, the Air Force sent me 
off to get a Ph.D. in business strategy and entrepreneurship, 
so I made my transition from military service directly to a 
role at Syracuse University as an entrepreneurship professor 
and found myself in a situation where I saw an opportunity to 
leverage that new role in service to the only professional 
community that I had ever known, which were military and 
veterans.
    I created a program in Syracuse in 2007 called the 
Entrepreneurship Boot Camp for Veterans with Disabilities, a 
program designed to empower our wounded warriors who may face 
barriers to traditional employment as a consequence of some of 
the disability challenges that they may face so that they could 
leverage self-employment as a path forward.
    I share that story only to suggest, at the time, there was 
very little focus on business ownership, particularly 
institutionalized focus on business ownership, as a path 
through the transition process. And, I know that because the 
very first opportunity I had to go talk to some soldiers about 
this new program that we were trying to create was several 
months prior to the first offering. I went to Walter Reed and 
about 200 soldiers in a Wednesday morning Commander's Call in a 
gym and talked to them about business ownership, and after I 
was finished, one of the vocational counselors there spent some 
time scolding me about talking to transitioning soldiers about 
business ownership because it is too hard and they are going to 
fail.
    I, again, share that story only as a means to reflect on 
the fact that today, with the introduction, for example, of 
Boots to Business, we now have institutionalized a path to the 
transition to civilian life focused on business ownership in a 
way that is very, very powerful, and, I think, empowering to 
this community.
    We look at programs like the EBV program I mentioned, the 
VWISE program. In my two minutes, I will also share that VWISE 
is a program that was created in 2010 at the request of the 
Small Business Administration, but as an entrepreneurship 
professor, that first conversation, I pushed back a little bit. 
I was not sure why we would create a business ownership 
training program specifically for women, because there is 
nothing necessarily that says to me I would train a woman to be 
a business owner any differently than I would train a man. As a 
veteran, I jumped right to veterans, our veterans.
    I could not have been more wrong, however, and I commend 
the SBA for pushing to explore that path, because one of the 
things I realized when we delivered the first program in San 
Antonio, Texas, in 2011, was that many of the women that 
participated, many of the female veterans that participated, 
maybe had been out of the military five, seven, 10, 15 years, 
and this was the first veterans-related event that they had 
ever participated in.
    And, exploring that motivation, what we found is that as a 
consequence of the fact that women are much less likely to 
self-identify as veterans, they are also much less likely to 
participate in typical veteran-focused events, trainings, 
because they will represent a stark minority in the context of 
many of those programs, and importantly, we also heard from 
some of those participants that they do not necessarily always 
feel safe, and when I mean--physically safe is what they are 
referring to--at some typical veterans' events.
    The outcomes that we have realized from the VWISE program 
over the course of the last four years or so have been 
remarkable. Forty-one million in revenue was generated by 
businesses created by VWISE graduates. Sixty-five percent of 
those going through the program have created businesses. And, 
they are hiring, and they are hiring other veterans. Currently, 
the average number of employees from VWISE-created businesses 
exceeds four. That is a very powerful outcome for that 
particular program, and it is an outcome that actually exceeds 
what you would see from like training programs.
    So, with that, I will say I am excited for the opportunity 
to both work with this body, to expand opportunity for veteran 
business ownership, and I am broadly excited for the future 
because I think this is a community on the edge of really doing 
remarkable things as an engine for the economy of this country. 
Thank you.
    [The prepared statement of Mr. Haynie follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Great. Thank you, Dr. Haynie.
    And now, we will move to Mr. Daugherty. Welcome.

STATEMENT OF SCOTT R. DAUGHERTY, ASSISTANT VICE CHANCELLOR FOR 
  ECONOMIC DEVELOPMENT, NORTH CAROLINA STATE UNIVERSITY, AND 
 STATE DIRECTOR, NORTH CAROLINA SMALL BUSINESS TECHNOLOGY AND 
                       DEVELOPMENT CENTER

    Mr. Daugherty. Good morning.
    Chairman Vitter. Good morning.
    Mr. Daugherty. Mr. Chairman, Senator Hirono, I am the State 
Director of the North Carolina SBTDC. I am also here today 
representing the Association of Small Business Development 
Centers, which, as you know, are the 63 SBA-funded SBDCs around 
the country and across the globe.
    My remarks are really based on 30 years' worth of working 
at--working on how to help small businesses and veteran-owned 
businesses be successful. I have been Chairman of our National 
Association multiple times, probably due to brain injury 
earlier in my life.
    [Laughter.]
    But, I have had opportunities to engage with many, many of 
my colleagues around the country. Your own SBDC Director in 
Louisiana, Rande Kessler, and I have been very interactive. 
And, I have a pretty good appreciation for what that resource 
can do.
    As you noted, I am a veteran. I am personally and deeply 
committed to services from whatever source that will help the 
women and men of the military find opportunities to realize the 
American dream and create a business.
    The SBDCs are actually the SBA's largest and most impactful 
resource in the country for business assistance. They have an 
unrivaled national presence, multiple locations in each state 
and locality. We are viewed as highly successful. I can tell 
you that we are highly introspective, measure everything, just 
like in the military we used to paint rocks that did not move. 
We count and measure everything. We want to know why we are 
doing, what we are doing, and how we are doing.
    SBDCs have a very long and successful record of serving 
veterans going back to the days when the primary tool for 
veterans leaving the military was the TAP program at the 
military installations. That certainly has been true of our 
SBDC in North Carolina for many, many years.
    The other thing that I think is often overlooked in this 
process, and I am going to talk briefly about this in a moment, 
but the assistance and resources to veterans and those 
leaving--transitioning from the military is more than an 
educational program. It really is an opportunity through 
resources like the SBDCs to gain that trusted business advisor 
relationship with a counselor who can provide probing questions 
and guidance on how to move forward.
    Our own service to veterans in North Carolina is 
significant. We have a very substantial military base in our 
communities. Fort Bragg is the largest military installation in 
the United States. Camp Lejeune is the Marines' East Coast 
representative. We have an Air Force base with an active 
fighter wing, and, believe it or not, the largest and most busy 
Coast Guard air station in the United States.
    We have had a lot of opportunity to provide instructional 
support along with partners in the Boots to Business program 
around our State, but most important is the one-on-one 
counseling that we provide to the businesses. Twelve to 14 
percent of our client base, which is around 4,200 to 4,500 
counseling clients a year--12 to 14 percent are veterans. And, 
that is reflective of our big military presence, but it is also 
reflective of our interest in serving them.
    To give you a little idea on the scalability of things, 
there are around 24.6 million veterans in the country and that 
is roughly 12 percent of the national population. It is a 
declining number, though, as veterans from World War II and the 
Korean War have declined, and now it is my era, the Vietnam War 
era veterans that are passing on, as well. The current military 
is about one percent of our national population, and so one of 
the consequences is that we can anticipate that the actual 
veteran population will begin to decline slightly in the years 
ahead.
    You are considering legislation on the Small Business 
Development Act, and it has applicability to our ability to 
serve the needs of veterans in the years ahead. A renewed and 
continuing commitment to helping existing veterans and those 
who are transitioning is a very laudable and noble undertaking. 
I support it. I have a few concerns, and I would like to share 
just a couple of observations.
    First, the new business start-up process, which is what we 
have been talking about much of this time with the prior panel 
and their start-up experience, it is a process. You do not just 
wake up one morning, you are a successful business owner. It 
has four steps.
    The first is the information gathering step, where folks 
will independently or through some sort of program like the TAP 
program or the Boots to Business program, which they are 
offering at the various military installations, is you take in 
information.
    The second is kind of the processing part of it, and that 
is reflecting on what you have heard and learned in that 
preliminary environment and making some conscious decisions 
about do I proceed with a plan to start a business.
    And that is when you get to what I characterize as the 
action planning step of the process. That is typically maybe a 
longer-term educational program, like your eight-part online 
service, and most SBDCs have some sort of multi-week program.
    Chairman Vitter. Mr. Daugherty, if I can just ask you to 
wrap up.
    Mr. Daugherty. All right. Anyway, so you have multiple 
stages.
    What I would leave you with is this. You already have a 
very robust service delivery network. We ought to capitalize on 
that and utilize that network for delivery of enhanced services 
to veterans and to transitioning veterans. So, I encourage you 
to look at the SBDCs as a delivery mechanism.
    [The prepared statement of Mr. Daugherty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Great. Thank you very much.
    And now, Mr. McCaffrey.

TESTIMONY OF CHARLES W. McCAFFREY, DIRECTOR, VETERANS BUSINESS 
OUTREACH CENTER AT COMMUNITY BUSINESS PARTNERSHIP, SPRINGFIELD, 
                               VA

    Mr. McCaffrey. I would like to thank the members of the 
committee for allowing me this opportunity this morning to 
testify. I encourage the committee's continued support of 
veteran entrepreneurship programs.
    As was noted earlier, I am a Navy veteran with 20 years of 
military and government contracting service. I am also a repeat 
business owner offender, if you will, first as a partner in an 
Italian deli and market in State College, Pennsylvania, more 
recently as a management consultant here in the metro D.C. 
area.
    When I transitioned from the military, we had a two-day 
program that taught you how to get veterans' benefits, how to 
write a resume, and to tie a double Windsor. I am happy to say 
that we have expanded those programs and I am very honored to 
be able to lend my experience to assisting my fellow veterans.
    The organization I represent, Community Business 
Partnership, was founded in 1995 and is a nonprofit 
organization working in collaboration with local, regional, and 
national organizations to promote small business growth in our 
communities. We are a sponsored program of George Mason 
University under the Office of Research and Economic 
Development.
    We accomplish our mission through a variety of separately 
funded programs, including a Small Business Development Center, 
a Women's Business Center, a Business Finance Center, and a 
Business Incubation Center that provide training and 
counseling, access to capital, low-cost office and meeting 
space, networking opportunities geared to meet the needs of 
today's small business owners. On May 1 of this year, we were 
also designated as a Veteran Business Outreach Center for the 
National Capital Region, including Northern Virginia, 
Washington, D.C., Maryland, Puerto Rico, and the Virgin 
Islands.
    Although we only recently received designation as a VBOC, 
Community Business Partnership has a long history of supporting 
veteran entrepreneurship. For the past 10 years, we have hosted 
the Veterans in Business Conference. What started as a small 
gathering of 25 veteran business owners has grown to the 
premier veterans' entrepreneurship conference in the metro D.C. 
area, bringing together more than 275 veteran business owners, 
federal agency representatives, prime contractors, nonprofits, 
and service providers each year.
    In 2012, we were approached by the TAP office at Marine 
Corps Base Henderson Hall to provide entrepreneurship training 
to transitioning Marines as part of the Department of Defense 
Entrepreneurship Pathway. At the time, Boots to Business was an 
unfunded program requirement that involved significant 
commitment from limited resources. But having supported 
socially and economically disadvantaged small business owners 
for many years, we knew this was a worthwhile initiative and we 
became part of the pilot program.
    In 2014, Community Business Partnership, along with the SBA 
Washington District Office and its resource partners, ranked 
number one in the country for total number of Boots to Business 
classes held and total number of attendees. In addition, we 
participated in the Boots to Business Reboot Program held at 
the Eisenhower Executive Office Building with 110 attendees 
comprised of veterans and their families.
    In 2015, we are positioned to provide Boots to Business 
classes at 16 military installations and in the metro D.C. area 
as well as a Reboot program and monthly one-day intensive 
business plan bootcamps.
    In 2014, Community Business Partnership held 244 training 
events with 3,430 attendees and provided 1,119 hours of 
counseling to 413 clients. Veterans make up 11 percent of our 
training clients and 17 percent of our counseling clients, and 
we would not be able to achieve these numbers were it not for 
the many public and private partners that we work with, 
including local Chambers of Commerce, Economic Development 
Authorities, Objective Rally Point D.C., and Dog Tag Bakery, 
just to name a few.
    As proud as I am of the numbers representing our support of 
veteran entrepreneurs, it is actually their successes that 
really tell the story. Staci Redmon is a third-generation 
service-disabled veteran. After 20 years of federal service, 
she started Strategy and Management Services in 2008 to work in 
the federal contacting arena. Staci was a participant in the 
first veterans' entrepreneurship mentoring group started by 
Fairfax SBDC in 2010, was a resident business at the Business 
Incubation Center at Community Business Partnership. She 
received training from our Women's Business Center and lending 
assistance from our Business Finance Center. Through budget 
cuts, sequestration, and furloughs, SAMS has endured with the 
support of Community Business Partnership and closed their 2014 
fiscal year generating $13.5 million in revenue and employing 
130 individuals.
    In 2013, Staci received the Virginia Small Business Veteran 
of the Year Award from the Virginia SBDC Network, and Staci 
exemplifies the spirit of that award in service to her country, 
success in business, and involvement with her community. And, 
she also embodies the long-term commitment that the SBA 
resource partners strive for with our clients.
    Again, I thank you for the opportunity to testify today and 
to share our efforts and their successes in veteran 
entrepreneurship.
    [The prepared statement of Mr. McCaffrey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Okay. Thank you all very much for being 
here, for your testimony, both oral and written.
    Now, we will go to Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you all for testifying. What I get from all of your 
testimony is that we have a number of programs that are 
specifically targeting veterans, and it appears as though there 
is quite a lot of collaboration that is already occurring, so 
that is really good to know.
    I was struck by, is it Mr. Daugherty, you mentioned a four-
step process which is too often not addressed by the various 
programs and initiatives that we have to help our veterans. I 
know you ran out of time. Did you have a suggestion as to how 
we can better address these four steps?
    In fact, one of the steps that I was curious about is the 
reflective part. Is there counseling, or are they the 
challenges of opening a business? Is that the point at which 
that kind of information would be helpful to the veteran?
    Mr. Daugherty. Yes. I think----
    Senator Hirono. Could you expand a little bit more?
    Mr. Daugherty. I think it is. The important element in the 
process is that training is a piece of it, reflection is a 
piece of it, and access to business advisory services to kind 
of sort through the options and opportunities, and how do you 
think through it and build a plan that will allow you to be 
successful?
    And, too many of the programs have a piece and do not have 
that other piece. You are just hoping that occurs. And, what 
you want is something that is integrated, that provides an 
opportunity. So, it could be a training program like the one 
you have developed, but there ought to be a direct connection 
to your business advisory resources in terms of delivery of 
that kind of consultative support to the clients. I think it 
would be very helpful.
    Senator Hirono. You noted that the SBDCs, those are a 
nationwide SBA small business effort to help small businesses, 
and I am familiar with a couple of them in Hawaii. The SBDCs, 
would that be a setting for the kind of more complete support 
that you are talking about, Mr. Daugherty?
    Mr. Daugherty. Well, it exists. It is already out there. 
They are already serving veterans. And, there are lots of 
terrific ideas we heard in the first panel. They are really 
great. But, if you are talking about the application of very 
scarce federal-level resources, how do you get the best bang 
for the buck to assure that there is integration?
    Sometimes within agencies, you know, there are silos, and I 
am not----
    Senator Hirono. Yes.
    Mr. Daugherty [continuing]. Speaking out of turn.
    Senator Hirono. No.
    Mr. Daugherty. You know, you have an office----
    Chairman Vitter. You are not shocking us, do not worry.
    Mr. Daugherty. No, exactly.
    [Laughter.]
    So, you have an Office of Small Business Development. You 
have got a veterans' office. And then you have got this thing 
called field operations, which is kind of disconnected from all 
three of them in terms--so you are really relying in the end at 
the local level, the goodwill of folks to make it happen as 
opposed to it being part of a strategic way to think about the 
delivery of service.
    Senator Hirono. Ms. Carson, would you like to weigh in on 
how we can create a more integrated way to respond to the needs 
of the veterans who want to have their own businesses?
    Ms. Carson. Thank you for the opportunity to do so. I think 
that I could turn to Mr. McCaffrey, as well, and say that one 
of the--we identified the same problem that Mr. Daugherty has 
identified, which is a lack of integration and then a 
difficulty in getting the word out to the veterans who need 
these resources.
    So, the Veteran Business Outreach Center, we just competed 
14 of those grants this spring, and the criteria within it 
included--it was heavily weighted, as well. You must show a 
partnership. What is your network? What is your knowledge of 
all the resources that are available to veteran entrepreneurs? 
And, it was a competitive process.
    So, that is in one place where we are showing that we 
recognize as an agency, a federal agency, that we absolutely do 
not have all the right ideas, nor the funds to enact them, but 
we do have partnerships and knowledge, and my office is 
accountable for knowing what those are across the federal 
space, connecting at the state level and local levels where it 
really happens. If I cannot get a local lender to help a 
veteran entrepreneur get access to capital, then something is 
not right at the higher levels. So, we are engaging at every 
level.
    And, as Mr. Daugherty said, good will is not enough in all 
cases. So, we have done things like funding our resource 
partners to help us deliver Boots to Business across the nation 
and around the world with the help of the Institute for 
Veterans and Military Families.
    So, I would like to say that we do hear this concern and we 
are absolutely acting on it to better integrate and optimize 
what is available for veterans, and I really want the Veteran 
Business Outreach Centers to be that first point, that triage, 
if you will, for a vet, that they will not have everything for 
everyone, but they know enough to transfer them to----
    Senator Hirono. Right now--excuse me. My time is----
    Ms. Carson. Sorry.
    Senator Hirono. Oh, it is up. Do you mind if I----
    Chairman Vitter. Go ahead.
    Senator Hirono. A couple more minutes. So, there are only 
15 Veterans Business Outreach Centers, so I do not know where 
these 15 centers are. Do you have one in Hawaii, for example?
    Ms. Carson. No, I do not have one in Hawaii. The Women's 
Business Development Center out of Chicago does service Hawaii 
and is already in coordination with the SBA district office 
there.
    Senator Hirono. Is there an intention to have these 
outreach centers in every state, or are you working through the 
VBOCs?
    Ms. Carson. The VBOCs----
    Senator Hirono. I mean--there are all these acronyms. 
SBDCs.
    [Laughter.]
    SBDCs. I know you have SBDCs in Hawaii.
    Ms. Carson. Currently, we are authorized and appropriated 
for 15, and that is what we have. So, we make the most of that 
network by building upon our partnerships that also exist 
within SBA, the SBDCs, SCORE, and Women's Business Centers to 
reach every state and territory for our veterans.
    Senator Hirono. So, if I were to contact the SBDC on the 
big island, for example, which I have visited with, and started 
talking with them about the veterans business outreach efforts, 
they would be familiar with all of the resources?
    Ms. Carson. They have been a fantastic partner in our 
veteran programs and initiatives on their own, and we are 
integrating them with the Women's Business Development Center 
in Chicago, which just stood up. It is a recent awardee. So, 
together, they will service your veterans in Hawaii very well.
    Senator Hirono. I just want to end by thanking all of you, 
particularly, Dr. Haynie, I really appreciated your commitment 
to helping the disabled veterans, and all of you, because that 
may be a very special group of veterans that we ought to 
provide specialized kinds of resources to, just as I thank you 
for your acknowledgement that women veterans should have 
particular programs that are just their needs.
    Mr. Haynie. You are very welcome.
    Senator Hirono. Thank you very much, Mr. Chairman.
    Chairman Vitter. Great. Thank you, and thanks to all of you 
for your testimony, just like our first panel. This was an 
important hearing, including because it is not in a vacuum. As 
I mentioned at the beginning, the committee is working on a 
bipartisan veterans' entrepreneurship bill. We hope to mark it 
up next month. We want all of your continued input, so you will 
certainly get drafts, and please give us all of your input. Mr. 
Daugherty suggested some, and we want to follow up on all of 
that. So, thank you very, very much for your work.
    With that, this hearing is adjourned.
    [Whereupon, at 11:05 a.m., the committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED
                      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
